HHS/OIG-Audit--"Compliance with the Prompt Payment Adt by the Division of Fiscal Services,(A-15-96-40001)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Compliance with the Prompt Payment Act by the Division of Fiscal Services,"
(A-15-96-40001)
November 26, 1996
Complete Text of Report is available in PDF format
(2.4 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of compliance with the Prompt
Payment Act by the Division of Fiscal Services (DFS) within the Financial Management
Service of the Program Support Center. The report contains recommendations to
improve compliance with the Prompt Payment Act by assuring that goods and services
paid for are received, discounts that are advantageous to the government are
taken, and payments made under the Act are accurately reported.
We recommended that DFS:
use the existing payment system to identify all instances where goods and
services have been reported as paid for, but not received to (1) assess and
correct problems with the payment system and (2) obtain reimbursement from
the payee in instances where goods and services were found to have not been
received;
modify the payment system to require that discount data be recorded in the
payment system before payments can be processed;
use actual results that are available when compiling Prompt Payment Status
reports and, before submitting the reports to OMB, verify that the reports
reflect all of the DFS and IHS field offices; and
provide written policies and procedures to all reporting entities for performing
quality assurance reviews. Reviewers should be instructed to: (1) examine
receiving reports or other original documentation when verifying whether goods
and services have actually been received and (2) assess the payment system
to assure the system accurately identifies whether goods and services paid
for have been received.
In responding to our draft report, the DFS generally agreed with all our recommendations.